AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19-

VIRGIL BREWER

 

Petitioner,

Vv.

KRISTINA MYERS, INDIVIDUALLY, AND AS ADMINISTRATOR
OF THE ESTATE OF STEVEN P. MYERS, AND AS NATURAL
PARENT AND LEGAL GUARDAIN OF K.D.M., C.F.M. AND K.J.M.,

Respondents.

X

 

STATE OF NEW YORK )
COUNTY OF NEW YORK_ )

I, Candice Best, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:

Iam retained by Counsel of Record for Petitioner.

That on the 19"" day of November, 2019, I served the within Petition for a Writ of
Certiorari in the above-captioned matter upon:

Michael T. Crabb

Michael J. Kuckelman

Kuckelman Torline Kirkland, LLC
Attorneys for Plaintiff-Respondent
10740 Nall, Suite 250

Overland Park, KS 66211

Office: (913) 948-8610

Fax: (913) 948-8611
mkuckelman@ktk-law.com
merabb@ktk-law.com

by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court forty copies and 1 un-bound
copy of the within Petition for a Writ of Certiorari and three hundred dollar filing fee
check through the United States Postal Service by Express Mail, postage prepaid.

All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 19" day of November, 2019.

Candice Best

Sworn to and subscribed before me this 19"" day of November, 2019.

 

Elias Melendez

Notary Public State of New York
No. 24-4799661

Qualified in Kings County
Commission Expires Aug. 31, 2021

#292530

g

COUNSEL PRESS
(800) 274-3321 + (800) 359-6859
www counselpress.com
